OIG Investigative Reports, St. Louis, MO September 13, 2011 - Chairman of the Board for the Paideia Academy and Employee of St. Louis City Treasurer's Office Indicted on Fraud Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN  DISTRICT OF MISSOURI
September 13, 2011
Chairman of the Board for the Paideia Academy and Employee of St. Louis City Treasurer's Office Indicted on Fraud Charges
ST. LOUIS-The United States Attorney's Office announced today that Fred W. Robinson was indicted on multiple fraud charges involving his alleged submission of false time sheets in the Treasurer's office and his alleged diversion of federal and state education funds from the Paideia Academy charter school.
According to the indictment, Robinson was the chairman of the board of trustees for Paideia Academy, a Missouri Charter school. He maintained an office in the school's administration building and was involved in the day-to-day management and administration of the school. Paideia was tuition free,and funded by federal and Missouri education funds intended for legitimate school operations. The Missouri Department of Education failed to renew Paideia's charter during June 2010 as a result of Paideia's sponsor, Missouri University of Science and Technology, withdrawing its sponsorship. The indictment alleges that during 2009 and 2010, Robinson diverted approximately $257,000 of Paideia Academy funds for the purchase, construction, renovation, and rehabilitation of a building at 4028 West Florissant Avenue in St. Louis for the purpose of developing and operating a Little People's Academy day care center in which Robinson had a ownership and financial interest. Robinson failed to disclose his ownership and financial interest in the proposed day care center to the Paideia Academy Board of Trustees. Robinson's partner in the proposed day care center, identified in the indictment as Latasha P., was a friend and associate of Robinson who worked as a bartender at a lounge frequented by Robinson, and who had no background, experience, or training in early childhood education or the operations of a day care center.
Additionally, the indictment alleges that Robinson, during each year from 2006 through 2010, as an employee of the Treasurer's Office for the City of St. Louis, submitted false weekly time sheets falsely certifying work hours and was paid approximately $35,360 each year in salary based upon those false time sheets.
Robinson, 69, St. Louis, was indicted by a federal grand jury on one felony count of wire fraud and seven felony counts of federal program theft. He was arrested earlier today, and is scheduled to appear for his initial appearance at 2:00 p.m. before United States Magistrate Judge Nannette Baker.
If convicted, wire fraud carries a maximum penalty of 20 years in prison and/or fines up to $250,000; each count of federal program fraud carries a maximum penalty of 10 years in prison and/or fines up to $250,000. In determining the actual sentences, a judge is required to consider the U.S. Sentencing Guidelines, which provide recommended sentencing ranges.
This case is being investigated by the Federal Bureau of Investigation and the United States Department of Education, Inspector General's Office. Assistant United States Attorney Hal Goldsmith is handling the case for the U.S. Attorney's Office.
As is always the case, charges set forth in an indictment are merely accusations and do not constitute proof of guilt. Every defendant is presumed to be innocent unless and until proven guilty.
Top
Printable view
Last Modified: 10/04/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov